 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




  National Telecommunications
and Information Administration

         California Public Safety
  Interoperable Communications
Grant Award No. 2007-GS-H7-0008

                       Report No. OIG-11-002-A
                               October 21, 2010




           FOR PUBLIC RELEASE




                 Office of Audit and Evaluation
                                                                                        Enclosure 1
                                                                                        Page 1 of 2



                                    NOTICE TO AUDITEES
                                   Financial Assistance Audits


1.   Audit requirements applicable to a particular financial assistance award may be established
     by law, regulation, policy, or the terms of the recipient's financial assistance agreement with
     the Department of Commerce.

2.   Audit results will be reported to the bureau or office administering the financial assistance
     award and to you (the recipient/auditee), unless the Department’s inspector general
     determines it is in the government's interest to withhold the audit report.

3.   Audit results may lead to adverse consequences for you, including the following actions
     (which are subject to applicable laws and regulations):

     o    suspension and/or termination of current awards;

     o    referral of identified problems to other federal funding agencies and entities as deemed
          necessary for remedial action;

     o    denial of eligibility for future awards;

     o    cancellation of authorization for advance payment and substitution of reimbursement
          by check;

     o    establishment of special conditions in current or future awards; and,

     o    disallowance of costs, which could result in a reduction in the amount of federal
          payments, withholding of payments, offset of amounts due the government
          against amounts due you, or establishment of a debt and appropriate debt
          collection follow-up (including referrals to collection agencies).

     Because of these and other possible consequences, it is important that you take your
     responsibility to respond to audit findings seriously by providing explanations and evidence
     to support your position with respect to the disputed results.
                                                                                        Enclosure 1
                                                                                        Page 2 of 2


4.   You have the following opportunities to point out errors (of fact or law) that you believe
     were made in the audit, to explain other disagreements with audit findings and
     recommendations, to present evidence that supports your positions, and to dispute final
     determinations:

     o   At any time during the audit, you may bring to the attention of the auditors
         evidence you believe affects the auditors' work.

     o   At the completion of the audit on-site, as a matter of courtesy, you will usually be
         given the opportunity to discuss (during an exit conference) the preliminary audit
         findings and to present a clear statement of your position on the significant
         preliminary findings, including possible cost disallowances.

     o   When the draft audit report is issued, you will have the opportunity to comment
         and to submit evidence during the 30 days after we transmit the report to you.
         (We will not extend this deadline.)

     o   When the final audit report is issued, you will have the opportunity to comment
         and to present evidence during the 30 days after we transmit the report to you.
         (We will not extend this deadline.)

     o   When the Department issues its decision (the "Audit Resolution Determination") on
         the audit report's findings and recommendations, you have the right to appeal for
         reconsideration within 30 calendar days after receiving the Determination Letter if
         monies are due the government. (We will not extend this deadline.) The
         Determination Letter will explain the specific appeal procedures.

     o   Once you file an appeal or the appeal period has expired, the Department will not
         accept any further submissions concerning your dispute of its decisions. If it is
         determined that you owe money or property to the Department, the Department will
         take appropriate collection action but will not thereafter reconsider the merits of the
         debt.

     There are no other administrative appeals available in the Department.
                                    Report In Brief
                                                U.S. Department of Commerce Office of Inspector General
                                                                    October 21, 2010



Why We Did this Review                   National Telecommunications and Information Administration
On September 30, 2007, the
National Telecommunications and
Information Administration (NTIA)        California Public Safety Interoperable Communications
awarded a $94,034,510 Public             Grant PSIC Award No. 2007-GS-H7-0008 (OIG-11-002-A)
Safety Interoperable Communica-
tions (PSIC) grant to the State of
California to enhance interoperable      What We Found
emergency communications. NTIA
also required a minimum
20 percent matching share from           Our audit covered the award period of October 1, 2007, through June 30, 2009,
nonfederal sources for the acquisi-      during which time the California Emergency Management Agency (CALEMA)
tion and deployment of communica-
tions equipment, and management          claimed total costs of $3,273,405. In general, CALEMA appears to be on track
and administration costs.                to complete its investments before the end of the award, but we did discover
                                         several areas of concern. Specifically, we found the following:
The original award period ran from
October 1, 2007, to September
30, 2010. In November 2009, the          •   CALEMA has not provided proper documentation for almost $600,000 of its
President signed an act extending            nonfederal matching share, which could lead to a $2.4 million reduction in
the award period to September 30,
2011.                                        federal funds allowed.

CALEMA was designated as Cali-           •   CALEMA has been noncompliant with PSIC requirements in several areas,
fornia’s state administrative agency         including not fulfilling PSIC reporting requirements, insufficiently monitor-
to apply for and administer PSIC
                                             ing subrecipients, allowing ineligible costs incurred by subrecipients, and
funds.We audited costs claimed by
CALEMA to determine whether the              claiming costs for vehicle repairs and other invalid expenditures. We ques-
recipient complied with NTIA PSIC            tioned $73,474 of the costs CALEMA claimed during the audit period.
grant guidelines and the Depart-
ment of Homeland Security’s (DHS)
award terms and conditions.
                                         What We Recommended
Background
The Digital Television and Pub-
lic Safety Act of 2005 authorized        In our draft report, we made several recommendations to the NTIA Assistant
NTIA, in consultation with the           Secretary for Communications and Information, in conjunction with the Fed-
DHS, to implement the PSIC
program—a $1 billion one-time,
                                         eral Emergency Management Agency’s Grant Programs Directorate, to correct
formula-based matching grant             deficiencies with CALEMA’s reporting and compliance. CALEMA has taken
program intended to enable public        certain actions to correct some of these deficiencies, but the agency should be
safety agencies to establish interop-
erable emergency communications
                                         directed to
systems using reallocated radio
spectrum.                                •   provide NTIA with a nonfederal matching share plan that demonstrates the
                                             correct matching amount is in place;
The Implementing Recommenda-
tions of the 9/11 Commission Act         •   provide actual nonfederal matching share expenditures in its next quarterly
of 2007 requires the Commerce In-
spector General to conduct financial
                                             financial status report; and
audits, over 4 years, of a representa-
tive sample of at least 25 states or     •   reduce its cost claim by the $73,474 in questioned costs and refund the fed-
territories receiving PSIC grants.           eral government $567,544 in excess disbursements.
U.S. Department of Commerce                                                                                    Final Report OIG-11-002-A
Office of Inspector General                                                                                              October 21, 2010


                                                                 CONTENTS

Introduction ......................................................................................................................................1 
Findings and Recommendations ......................................................................................................3 
I.            Investments Are on Track for Completion Before End of Grant ......................................3 
II.           Nonfederal Matching Share Commitments Appear Deficient ..........................................3 
III.          Areas of Noncompliance with PSIC Requirements ..........................................................4 
        A.  CALEMA Did Not Comply with Reporting Requirements ..............................................4 
        B.  Inadequate Subrecipient Monitoring .................................................................................5 
        C.  CALEMA Allowed Management and Administrative Costs by Subrecipients ................5 
        D.  Questioned Costs ...............................................................................................................6 
IV.           Follow-Up on Prior Audit Recommendations ..................................................................7 
Summary Results of Financial Audit ...............................................................................................8 
Appendix A: Objectives, Scope, and Methodology.........................................................................9 
Appendix B: Summary of Source and Application of Funds ........................................................11 
Appendix C: Summary of Financial/Compliance Audit ................................................................12 
Appendix D: Recipient Response ..................................................................................................14 
U.S. Department of Commerce                                                            Final Report OIG-11-002-A
Office of Inspector General                                                                      October 21, 2010


                                               INTRODUCTION


On September 30, 2007, the National
Telecommunications and Information                              Public Safety Interoperable
Administration (NTIA) awarded a Public                          Communications Program
Safety Interoperable Communications (PSIC)
                                                           The Digital Television and Public Safety Act
grant to the state of California to enhance
                                                           of 2005 authorized NTIA, in consultation with
interoperable emergency communications.                    the Department of Homeland Security
The grant provided federal funding of                      (DHS), to implement the PSIC program—a
$94,034,510, of which $61,612,835 required                 $1 billion, one-time, formula-based matching
nonfederal matching contributions. Federal                 grant program intended to enable public
funds provided for acquisition and                         safety agencies to establish interoperable
deployment of communications equipment,                    emergency communications systems using
and management and administration (M&A)                    reallocated radio spectrum.
costs must be matched by nonfederal
contributions of at least 20 percent of the total          NTIA signed a memorandum of
cost of those activities. Statewide planning,              understanding with DHS, under which DHS
                                                           oversees and administers the PSIC
planning and coordination, and training costs
                                                           program.
do not require matching share. The
$61,612,835 provided for acquisition,                      The Implementing Recommendations of the
deployment, and M&A represents 80 percent                  9/11 Commission Act of 2007 requires the
of the total cost of those activities, leaving a           Commerce Inspector General to conduct
minimum nonfederal matching share                          financial audits, over 4 years, of a
requirement of $15,403,209.                                representative sample of at least 25 states
                                                           or territories receiving PSIC grants. The
The award period runs from October 1, 2007,                California grant program is the largest of the
to September 30, 2011. On November 6,                      56 states and territories receiving awards.
2009, the President signed Public Law 111-
96, which extended the PSIC program beyond
its original expiration date of September 30, 2010. The new law extended the performance period
of all PSIC grants through September 30, 2011, and allowed for additional extensions, through
September 2012, on a case-by-case basis, if approved by the Assistant Secretary for
Communications and Information.

The Governor of California designated the California Governor’s Office of Homeland Security
as California’s state administrative agency to apply for and administer PSIC funds.1 That office
later transferred responsibility for administering the PSIC grant program to the California
Emergency Management Agency (CALEMA). CALEMA prepared an investment justification,
based on the NTIA PSIC Program Guidance and Application Kit, which detailed individual
communications projects intended to (1) achieve meaningful and measureable improvements in
interoperability, and (2) fill gaps identified in the statewide communications interoperability
1
  The PSIC program requires the governor of each state or territory to designate a state administrative agency to
apply for and administer PSIC funds. Administrative agencies are required to pass through no less than 80 percent of
the total award amount to local or tribal governments or authorized nongovernmental public safety agencies, unless
the local entity opts, via written agreement, to have the state agency retain and spend the funds on its behalf.


                                                    1
U.S. Department of Commerce                                                   Final Report OIG-11-002-A
Office of Inspector General                                                             October 21, 2010


plan. The investment justification had a total of eight investments and was approved by NTIA on
May 22, 2008. Table 1 illustrates CALEMA’s PSIC grant budget, including modifications
approved by NTIA on June 30, 2010.

                    Table 1. Investment Justification and Funding
                                                          PSIC Funds    Nonfederal
    PSIC Investment                                         Awarded        Matcha               Total
    Investment 1. State Agency Investments
    Including Statewide Initiatives                       $17,247,340    $2,697,688     $19,945,028
    Investment 2. Los Angeles Regional
    Interoperable Communications System                    22,278,788                     22,278,788
    Investment 3. Central California Statewide
    Interoperability Executive
    Committee/Fresno Urban Area Security
    Initiative Interoperable Communications
    Project                                                 5,681,433     1,262,108        6,943,541
    Investment 4. Northern Planning Area                    2,989,605       429,076        3,418,681
    Investment 5. Orange County and
    Concurrent County/City Interoperable
    Communications Development Plan                        12,748,170     3,187,043       15,935,213
    Investment 6. Bay Area Super Urban Area
    Security Initiative in Coordination with the
    Capitol/Bay Area Planning Area                         14,941,977     3,735,494       18,677,471
    Investment 7. Capital Public Safety
    Interoperable Communications Program                    8,100,242     1,780,060        9,880,302
    Investment 8. San Diego Urban Area and
    Imperial County Interoperability
    Improvements                                            9,532,101     2,183,025      11,715,126
    Management and Administration                             514,854       128,714         643,568
    Total                                                 $94,034,510   $15,403,208    $109,437,718
Source: CALEMA’s approved scope modification budget
a
 Budgeted nonfederal match of $15,403,208 appears to be $1 less than the minimum required. This
immaterial difference is due to rounding.

States were required to include a prescribed strategic technology reserve in their justifications.
The strategic reserve is designed to pre-position, or secure in advance, interoperable
communications equipment for immediate deployment in an emergency situation or major
disaster. States were permitted to request a waiver from this requirement if they could
demonstrate they already had such a reserve or that other PSIC project proposals represented a
higher priority for public safety communications. CALEMA requested and received a waiver.




                                                      2
U.S. Department of Commerce                                              Final Report OIG-11-002-A
Office of Inspector General                                                        October 21, 2010


                              FINDINGS AND RECOMMENDATIONS

In May 2009, we initiated an audit of costs claimed by CALEMA to determine whether it had
complied with NTIA PSIC grant guidelines and DHS award terms and conditions. The audit
covered the award period of October 1, 2007, through June 30, 2009, during which time the
recipient claimed total costs of $3,273,405. As stated in appendix A, the objective of our audit
was to determine whether CALEMA was using its grant funds in accordance with federal
requirements. In particular, we assessed whether CALEMA (1) is on track to complete its
interoperable communications investments by September 30, 2011; (2) met the minimum
20 percent match for acquiring and deploying interoperable communications equipment and for
M&A costs; (3) claimed reasonable, allowable, and allocable costs under the award; and
(4) complied with grant terms and conditions. The following sections detail our findings with
respect to each audit objective.

I.   Investments Are on Track for Completion Before End of Grant

CALEMA anticipates completing the eight investments by June 30, 2011, which is prior to the
grant completion date of September 30, 2011. Our audit found nothing to indicate that any of the
investments would not be completed on time.

II. Nonfederal Matching Share Commitments Appear Deficient

CALEMA is required to provide a minimum 20 percent matching share from nonfederal sources
for the acquisition and deployment of interoperable communications equipment and for M&A.
The match is required by the Digital Television Transition and Public Safety Act of 2005, Public
Law 109-171, Section 3006; the PSIC Program Guidance and Application Kit; and the special
award conditions. CALEMA’s most recent budget includes $15,403,208 in nonfederal matching
share. However, CALEMA’s submissions to the auditors provided for only $14,809,612 in
nonfederal matching share, some $593,596 less than the approved budget. Based on the required
matching share, a reduction of $593,596 in matching share contributions would result in a
corresponding reduction of almost $2.4 million in allowable federal funds. CALEMA needs to
identify and secure additional sources of nonfederal matching share in order to comply with
PSIC grant requirements and avoid forfeiting a significant portion of PSIC funding.

CALEMA Response

Since the time of our audit, CALEMA has implemented an automated ledger system with a
match-tracking option that allows CALEMA to run reports showing match obligated and match
expended for each PSIC subgrantee. A report dated September 8, 2010, shows $14,273,610 as
obligated match. CALEMA’s complete response to our draft report, excluding attachments, is
included as appendix D.

OIG Comments

CALEMA’s report of matching share contributions is less than the amount previously provided
to us. Therefore, we have not changed our finding or recommendation.


                                            3
U.S. Department of Commerce                                                Final Report OIG-11-002-A
Office of Inspector General                                                          October 21, 2010



Recommendation

We recommend the NTIA Assistant Secretary for Communications and Information, in
conjunction with the Federal Emergency Management Agency’s (FEMA’s) Grant Programs
Directorate, require CALEMA to provide NTIA with a nonfederal matching share plan that
demonstrates the required $15,403,208 in nonfederal matching share is in place.

III. Areas of Noncompliance with PSIC Requirements

We evaluated CALEMA’s compliance with federal laws and regulations, grant terms and
conditions, and PSIC program policy and guidelines. We noted instances of noncompliance in
the areas of programmatic and financial reporting, subrecipient monitoring, and reimbursement
for M&A costs. In addition, we found CALEMA had claimed questionable PSIC project costs.
Our findings and specific recommendations are discussed below.

A.     CALEMA Did Not Comply with Reporting Requirements

The PSIC Program Guidance and Application Kit, section VI, part C, page 33, states that a state
or territory and its subrecipients will be responsible for providing updated obligation and
expenditure information on a regular basis. Updated obligation and expenditure information must
be provided to show progress made toward meeting strategic goals and objectives. CALEMA’s
biannual strategy implementation reports (BSIRs) accumulated all in-kind contributions received
in the line item for indirect cost contributions. This treatment does not reflect the true nature of
the in-kind contributions, which should have been reported in the appropriate categories (e.g.,
volunteer services, donated salaries, donated equipment, donated property), based on the type of
contribution received.

In addition, as of June 30, 2009, CALEMA had expended $3,268,615 in federal funds, but
reported only $4,790 of nonfederal match on its financial status report. CALEMA’s claimed
matching share contributions were understated because it did not report matching share expenses
incurred by its subrecipients. We asked CALEMA for a summary of actual nonfederal
expenditures, including subrecipient expenses, through June 30, 2009, and the agency provided a
series of documents showing $406,503 in nonfederal expenditures. However, CALEMA’s
records appear to be inaccurate, based on amounts reported directly to us by the subrecipients.
After accumulating each of the subrecipients’ nonfederal spending as reported to us, we
computed actual nonfederal contributions to be $1,749,655. The difference between the
$406,503 summarized by CALEMA and our calculated figure of $1,749,655 occurred because
(1) CALEMA’s financial management system incorrectly records nonfederal match of
subrecipients, and (2) CALEMA had told its subrecipients to report nonfederal match at the same
rate they were expending federal funds, regardless of actual nonfederal contributions. CALEMA
is currently updating its financial management system to accurately record and track nonfederal
expenditures.




                                             4
U.S. Department of Commerce                                               Final Report OIG-11-002-A
Office of Inspector General                                                         October 21, 2010


CALEMA Response

CALEMA stated that in July 2010 it submitted a BSIR showing updated PSIC expenditures.
Subgrantees were educated by CALEMA on how to enter their match expenditures into the BSIR
grants reporting tool so as to correctly reflect their obligated and expended match. In addition,
CALEMA has updated its automated ledger system to record and track nonfederal matching
expenditures.

OIG Comments

We concur with CALEMA’s stated corrective actions. However, CALEMA still needs to provide
actual nonfederal matching share expenditures in its next quarterly financial status report.

Recommendations

We recommend the NTIA Assistant Secretary for Communications and Information, in
conjunction with FEMA’s Grant Programs Directorate, require CALEMA to report total, actual
nonfederal matching share expenditures in its next quarterly financial status report.

B.     Inadequate Subrecipient Monitoring

Grantees are responsible for managing the day-to-day operations of grant- and subgrant-
supported activities. Grantees must monitor activities to ensure compliance with applicable
federal requirements and to ensure that performance goals are being achieved. (See Title 15,
Code of Federal Regulations, § 24.40.) The regulation further requires grantees to monitor
subrecipient performance under each program, function, or activity of the grant. Although the
grant was awarded in September 2007, CALEMA officials told us that the agency did not
monitor its subrecipients for more than 2 years from the grant’s effective date, and only started
subrecipient monitoring in January 2010. Basic monitoring tasks not performed during the first
2 years include visiting sites to verify subrecipient accomplishments, tracking goals and
milestones, and reviewing subrecipient source documentation prior to approving requests for
reimbursement.

In response to our draft report, CALEMA implemented adequate procedures for subrecipient
monitoring. CALEMA developed and implemented a risk assessment program that allows for the
monitoring of all grants during the grant award period through field and desk reviews. CALEMA
states that it has completed seven PSIC monitoring activities during the third and fourth quarters
of fiscal year 2010. In addition, CALEMA plans on performing four extended-scope PSIC
reviews as well as a number of limited-scope reviews during fiscal year 2011. We concur with
CALEMA’s stated corrective actions.

C.     CALEMA Allowed Management and Administrative Costs by Subrecipients

NTIA’s PSIC Program Guidance and Application Kit, section VII, part D, states that M&A costs
associated with acquisition, deployment, and training are eligible for reimbursement with PSIC
funds, but only at the state administrative agency level. PSIC guidelines limit the amount of


                                             5
U.S. Department of Commerce                                                 Final Report OIG-11-002-A
Office of Inspector General                                                           October 21, 2010


M&A costs eligible for federal reimbursement to 3 percent of the total PSIC funding. The
California Governor’s Office of Homeland Security, however, had issued a directive that allowed
PSIC subrecipients to receive federal reimbursement for M&A costs—up to 3 percent of the total
amount of each subaward. This state directive is inconsistent with the PSIC guidelines that
permit the use of federal funds for M&A purposes only at the state administrative agency level.
As of June 30, 2009, a subrecipient claimed and received reimbursement for $44,200 in M&A
costs. Since the cost was incurred at the subrecipient level, it is ineligible for reimbursement with
PSIC funds. In our draft report, we also questioned $373 in travel expenses, but subsequently
determined this amount to be allowable.

In response to our draft audit report, CALEMA stated that it requested and received
reimbursement of $44,200 of M&A costs from its subrecipient. CALEMA stated that it notified
all subrecipients in writing that PSIC M&A costs are only eligible for federal reimbursement at
the state level. We concur with CALEMA’s corrective actions.

D.       Questioned Costs

CALEMA claimed costs totaling $3,273,405 on its June 30, 2009, financial status report. A
summary of source and application of funds is provided in appendix B. We determined that
$73,474 of the costs claimed during that period were not allowable. Questioned costs include:
     •   Investment 1—$24,895:
         o CALEMA—vehicle repairs ($9,232) and tool kits ($3,550),
         o Emergency Medical Services Authority—normal operation and maintenance costs
           ($9,897), and
         o CALFIRE—unsupported expenditures ($2,216);
     •   Investment 3—normal business operating expenses (office supplies, telephone services,
         financial management workshops, etc.) totaling ($4,379); and
     •   Investment 5—PSIC-funded M&A claim ($44,200) at the subrecipient level.

For additional detail on the results of our financial audit, see appendix C.

CALEMA Response

In our draft audit report, we questioned $106,695 of costs claimed during the audit period.
CALEMA provided the following response.

     •   Investment 1—CALEMA will reobligate $12,782 to allowable PSIC activities.
     •   Investment 3—CALEMA provided additional documentation for unsupported
         expenditures and normal business operations.
     •   Investment 4—CALEMA supplied supporting documentation for $28,255.




                                             6
U.S. Department of Commerce                                                Final Report OIG-11-002-A
Office of Inspector General                                                          October 21, 2010


   •   Investment 5—CALEMA requested and received reimbursement of $44,200 of M&A
       costs from its subrecipient.

OIG Comments

   •   Investment 1—We concur with CALEMA’s stated corrective actions.
   •   Investment 3—We reviewed CALEMA’s supporting documentation and determined
       $4,966 is reasonable, allowable, and allocable. The remaining $4,379 is unallowable
       because the PSIC grant program specifically does not allow normal business operating
       expenses.
   •   Investment 4—We reviewed CALEMA’s supporting documentation and determined it is
       reasonable, allowable, and allocable to the grant.
   •   Investment 5—We concur with CALEMA’s corrective actions.

Recommendation

We recommend the NTIA Assistant Secretary for Communications and Information, in
conjunction with FEMA’s Grant Programs Directorate, require CALEMA to reduce its cost
claim by the $73,474 in questioned costs and refund the federal government $567,544, as
calculated in appendix C.

IV. Follow-Up on Prior Audit Recommendations

As part of our audit, we reviewed a February 2009 audit report dealing with the state of
California’s management of State Homeland Security Program grants awarded from fiscal years
2004 through 2006. Although the PSIC program was not part of the audit, we reviewed the report
and identified nine issues that could have a direct and material effect on the PSIC grant program.
Four of the nine items cited by the prior auditors were also issues we discussed in this report;
specifically, inadequate subrecipient monitoring, inaccurate financial reporting, insufficient
documentation in support of subrecipient reimbursements, and inadequate documentation of
costs incurred by the state. We did not find similar issues with the remaining five items identified
by the prior auditors—reprogramming of grant funds without funding agency approval,
questionable equipment purchases by subrecipients, subrecipients’ failure to follow required
procurement practices, failure to ensure fair and open competition in communications system
procurements, and significant cost growth in noncompetitive procurements.




                                             7
U.S. Department of Commerce                                               Final Report OIG-11-002-A
Office of Inspector General                                                         October 21, 2010


                         SUMMARY RESULTS OF FINANCIAL AUDIT

The results of our interim cost audit for the period of October 1, 2007, through June 30, 2009,
(detailed in appendix C) are summarized as follows:

Costs Claimed                                                           $3,273,405
Less: Questioned Costs                                                      73,474
Costs Accepted                                                          $3,199,931

Accepted Costs Not Subject to Match                                     $ 705,631
Accepted Costs Subject to Match                  $2,494,300
Federal Share Ratio                                    x 80%             1,995,440
Federal Funds Earned                                                     2,701,071
Federal Funds Disbursed                                                  3,268,615
Excess Disbursements Due the Government                                 $ 567,544




                                            8
U.S. Department of Commerce                                             Final Report OIG-11-002-A
Office of Inspector General                                                       October 21, 2010


                 APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether CALEMA was using its grant funds in
accordance with federal requirements. In particular, we assessed whether CALEMA (1) is on
track to complete its interoperable communications investments by September 30, 2011; (2) met
the minimum 20 percent match for acquiring and deploying interoperable communications
equipment and for M&A of the grant; (3) claimed reasonable, allowable, and allocable costs
under the award; and (4) complied with grant terms and conditions.

The audit scope included a review of costs claimed during the award period of October 1, 2007,
through June 30, 2009. We conducted our audit fieldwork from May through August 2009, at
CALEMA in Sacramento, California, and at subrecipient sites in Santa Ana, Los Angeles, San
Diego, and San Francisco, California.

To meet our objectives we did the following:

   •   reviewed investment documentation and discussed each investment with agency officials;
   •   analyzed source documents related to the minimum 20 percent match for acquiring and
       deploying interoperable communications equipment and for M&A of the grant;
   •   traced costs claimed to source documentation;
   •   interviewed CALEMA officials and reviewed the state's OMB Circular No. A-133 audit
       report for the year ending June 30, 2007; and
   •   reviewed pertinent laws, regulations, and guidance (listed below) against CALEMA’s
       PSIC activities and internal controls.

We evaluated CALEMA’s compliance with federal laws and regulations applicable to the PSIC
grant, including the following:

   •   Section 3006 of the Digital Television Transition and Public Safety Act of 2005, Public
       Law 109-171
   •   Call Home Act of 2006, Public Law 109-459
   •   Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-
       53
   •   Public Safety Interoperable Communications Grants, Public Law 111-96
   •   15 Code of Federal Regulations, Part 24, Uniform Administrative Requirements for
       Grants and Agreements to State and Local Governments
   •   PSIC Program Guidance and Application Kit, August 16, 2007
   •   NTIA PSIC Grant Program Allowable Cost Matrix
   •   NTIA PSIC Grant Program Frequently Asked Questions
   •   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments


                                           9
U.S. Department of Commerce                                              Final Report OIG-11-002-A
Office of Inspector General                                                        October 21, 2010


   •   OMB Circular A-133, Compliance Supplement, CFDA 11.555
   •   Special Award Conditions
   •   Department of Commerce Financial Assistance Standard Terms and Conditions
   •   DHS, Office of Grant Operations, Financial Management Guide

We verified the validity and reliability of computer-processed data supplied by CALEMA by
directly testing data against supporting documentation. Based on our tests, we concluded the
computerized data were reliable for use in meeting our objectives.

We analyzed nonstatistical samples of CALEMA and subrecipient transactions, generally
focusing on the highest dollar value transactions and line items. Since we did not attempt to
extrapolate findings from sample analyses to all transactions, we believe our sampling
methodology represented a reasonable basis for the conclusions and recommendations included
in our report.

We obtained an understanding of the management controls of CALEMA and its subrecipients by
interviewing with CALEMA and subrecipient officials, as well as examining policies and
procedures, CALEMA’s most recent audit report, and written assertions from CALEMA
officials. Our report contains recommendations to address CALEMA’s reporting of matching
share, tracking of project costs, and monitoring of subrecipients.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We performed this audit under the authority of Implementing Recommendations of the
9/11 Commission Act of 2007; the Inspector General Act of 1978, as amended; and Department
Organization Order 10-13, August 31, 2006.




                                           10
U.S. Department of Commerce                                              Final Report OIG-11-002-A
Office of Inspector General                                                        October 21, 2010


             APPENDIX B: SUMMARY OF SOURCE AND APPLICATION OF FUNDS

                CALIFORNIA EMERGENCY MANAGEMENT AGENCY
               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS
                          GRANT NO. 2007-GS-H7-0008
                    OCTOBER 1, 2007, THROUGH JUNE 30, 2009

                                       Approved                      Receipts &
                                        Budget                        Expenses
                                         (a)                            (b)

SOURCE OF FUNDS:


Federal                                $94,034,510                    $3,268,615
Nonfederal                              15,403,208                         4,790

Total                                 $109,437,718                    $3,273,405



APPLICATION OF FUNDS:

Investment 1                           $19,945,028                       $673,360
Investment 2                            22,278,788                              0
Investment 3                             6,943,541                        174,119
Investment 4                             3,418,681                        733,984
Investment 5                            15,935,213                      1,691,942
Investment 6                            18,677,471                              0
Investment 7                             9,880,302                              0
Investment 8                            11,715,126                              0
M&A Costs                                  643,568                              0

Total                                 $109,437,718                    $3,273,405

Notes:

(a) Approved budget is for the period October 1, 2007, through September 30, 2011, based on
California’s approved budget and scope modification.

(b) The receipts and expenses are for the period of October 1, 2007, through June 30, 2009.




                                           11
U.S. Department of Commerce                                          Final Report OIG-11-002-A
Office of Inspector General                                                    October 21, 2010


               APPENDIX C: SUMMARY OF FINANCIAL/COMPLIANCE AUDIT

                CALIFORNIA EMERGENCY MANAGEMENT AGENCY
               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS
                          GRANT NO. 2007-GS-H7-0008
                    OCTOBER 1, 2007, THROUGH JUNE 30, 2009

                                                                   Results of Audit
                         Approved              Costs           Costs                Costs
Description               Budget              Claimed        Questioned          Accepted

Investment 1           $19,945,028          $673,360             $24,895(a)       $648,465
Investment 2            22,278,788                 0                   0                 0
Investment 3             6,943,541           174,119               4,379(b)        169,740
Investment 4             3,418,681           733,984                   0           733,984
Investment 5            15,935,213         1,691,942              44,200(c)      1,647,742
Investment 6            18,677,471                 0                   0                 0
Investment 7             9,880,302                 0                   0                 0
Investment 8            11,715,126                 0                   0                 0
M&A Costs                  643,568                 0                   0                 0
Total                 $109,437,718        $3,273,405             $73,474        $3,199,931

Costs Claimed                                                      $3,273,405(d)
Less: Questioned Costs                                                 73,474
Costs Accepted                                                      3,199,931

Accepted Costs Not Subject to Match (e)                              $705,631
Accepted Costs Subject to Match                $2,494,300
Federal Share Ratio                                  x 80%          1,995,440
Federal Funds Earned                                                2,701,071
Federal Funds Disbursed                                             3,268,615
Excess Disbursements Due the Government                              $567,544

Notes:
   a) Questioned costs include vehicle repair ($9,232) and tool kits ($3,550) claimed by
       CALEMA, normal operations and maintenance ($9,897) claimed on behalf of the
       Emergency Medical Services Authority, and undocumented expenditures ($2,216)
       claimed on behalf of CALFIRE. Questioned claims total $24,895. These costs are not
       allowable, based on direction provided in NTIA’s PSIC Grant Program Allowable Costs
       Matrix. Federal cost principles require allowable costs to be adequately documented.

   b) Questioned costs include normal business operating expenses $4,379. Normal business
      operating expenses are not allowable, based on direction provided in NTIA’s PSIC Grant
      Program Allowable Costs Matrix.




                                         12
U.S. Department of Commerce                                            Final Report OIG-11-002-A
Office of Inspector General                                                      October 21, 2010


   c) Questioned costs involve management and administrative costs ($44,200) claimed by a
      subrecipient, in violation of NTIA’s PSIC Program Guidance and Application Kit.

   d) CALEMA reported total outlays of $3,273,405 on its June 30, 2009, financial status
      report.

   e) Accepted costs not subject to the matching share requirement consist of $705,631 in the
      planning and training category.




                                          13
U.S. Department of Commerce                                    Final Report OIG-11-002-A
Office of Inspector General                                              October 21, 2010


                              APPENDIX D: RECIPIENT RESPONSE




                                         14
U.S. Department of Commerce        Final Report OIG-11-002-A
Office of Inspector General                  October 21, 2010




                              15
U.S. Department of Commerce        Final Report OIG-11-002-A
Office of Inspector General                  October 21, 2010




                              16
U.S. Department of Commerce        Final Report OIG-11-002-A
Office of Inspector General                  October 21, 2010




                              17
U.S. Department of Commerce        Final Report OIG-11-002-A
Office of Inspector General                  October 21, 2010




                                               DEN-19672


                              18
